TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Incurred Cost Audit for Fiscal Year 2001


                                         December 2005

                             Reference Number: 2006-1C-012




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 20, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Incurred Cost Audit for Fiscal Year 2001
                             (Audit # 20061C0203)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s certified final indirect
 cost rate proposal and related books and records for reimbursement of Fiscal Year (FY) 2001
 incurred costs. The purpose of the examination was to determine allowability and allocability of
 direct and indirect costs and to establish audit-determined indirect cost rates for January 1, 2001,
 through December 31, 2001. The proposed rates apply primarily to the flexibility priced
 contracts.
 The DCAA qualified its audit report pending receipt of assist audits of the proposed FY 1999,
 2000, and 2001 subcontract costs to the extent that the assist audits may disclose additional
 questioned costs. The DCAA did not examine the subcontract costs and consider them
 unresolved pending receipt of the requested assist audits.
 Claimed direct costs are acceptable and are provisionally approved pending final acceptance.
 The contractor’s proposed indirect rates are acceptable as adjusted by the DCAA examination.
 The DCAA report was issued on September 29, 2003; however, the Treasury Inspector General
 for Tax Administration did not receive the report until November 2005. We are transmitting this
 report to you to enable the Internal Revenue Service to track any financial accomplishments
 derived from negotiations with the contractor based on the results of this DCAA report.
                               Incurred Cost Audit for Fiscal Year 2001




The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                   NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the Contracting Officer, to duly authorized
representatives of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
